HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of Food and Drug Administrations Award Process for a Contract With Apple
Hospitality Two LLC," (A-03-06-00540)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency
Response to Hurricanes Katrina and Rita:  Audit of Food and Drug
Administrations Award Process for a Contract With Apple Hospitality Two LLC," (A-03-06-00540)
May 22, 2007
Complete Text of Report is available in PDF format (88 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit is one of several reviews of procurements by the Food and Drug Administration (FDA) and other components of the Department of Health and Human Services (HHS) in response to Hurricanes Katrina and Rita in 2005.
The Federal Acquisition Regulation (FAR) and the Health and Human Services Acquisition Regulation (HHSAR) provide, among other things, that HHS agencies award each contract to a responsible party and document compliance with requirements for full and open competition and the determination that the price was fair and reasonable.
As part of HHS’s hurricane relief operations, FDA awarded a contract to Apple Hospitality Two LLC (Apple Hospitality). The contract obligated Apple Hospitality to lodge displaced Louisiana-based FDA employees near the temporary duty station in Nashville, Tennessee. Our objective was to determine whether FDA complied with FAR and HHSAR requirements during the award process involving Apple Hospitality. FDA complied with the requirements.